                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

11   TO: AIGI       I   File Number: A02020009                                      1    Date: 3/1/02

1    Subject:   m                                                                                  Page 1 of 2


           We were informed of a concern' that a program officer2had been slow to recuse himself from
           participating in the management of a new NSF program3 and this behavior constituted the
           appearance of a conflict of interest. According to the information, both the program officer and
           his spouse are prominent researchers among the community of scientists whose members are
           likely to submit proposals in response to the program announcement. Allegedly, the program
           officer had recused himself from participating in the program months after the announcement had
           been issued and this created a "chilling" effect among potential applicants, some who were
           allegedly not even bothering to apply.

           The program officer told us that the announcement represented the culmination of years of work
           on his part. He wanted to participate in the NSF management of this research thrust and had
           asked his wife not to apply. He said he is particularly sensitive to appearances because of his
           official position and his and his spouse's active research careers. He said he had made a
           particular point of urging members of the scientific community to apply in an effort to allay any
           concerns about conflict of interest.

           The announcement was made public in               and the deadline for applications was
                   After the announcement was publicized, the program officer left to work at his research
           site for the summer. On his return in September, he learned that his wife was to be included in a
           proposal submitted in response to the announcement. The program officer immediately alerted
           the Designated Agency Ethics officer4 of the matter. The DAEO told the program officer he had
           to recuse himself from the program because the outcome could have a direct and predictable




                                                  ,   National Science Foundation



                    1    Prepared by:   1               Cleared by:
                                                                                    11         *




      Signature &
         date:
          *rd

.-.
      C
                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                             ACTION MEMORANDUM

                                         -
                                         -       -
                                              --U-
                                                     %
                                                     a
TO: AIGI                 File Number: _, ,                                              Date: Today
                                        4oaoXoo~q
Subject: Case Closeout                                                                            Page 2 of 2


                impact on his spouse's income. The program officer recused himself and has not participated in
                any efforts related to the program since that time.

                The proposal5that included the program officer's spouse's participation was submitted in
                                The spouse was not a PI and was named as a non-co-PI participate. Her resume
                was included among the Biographical Sketches. The budget included some summer salary and
                travel expenses for the spouse.

                In the process of our review we noted that the program officer's name appeared on the program
                announcement. At our suggestion, the program removed his name.

                We concluded the program officer had acted appropriately, notifying the DAEO as soon as he
                was aware of the potential conflict of interest and the DAEO took reasonable action in recusing
                the program officer from participation in the management of the program and evaluation of the
                submitted proposals.
